     Department of Homeland Security

     ��������������������������



    FEMA Should Recover $4.1 Million of Public 

Assistance Grant Funds Awarded to Orlando Utilities 

         Commission — Hurricane Charley 





DA-13-18                                   June 2013

                                        OFJ<'ICE O:F INSPECTOR GRNERAJ,
                                             Department of Homeland Security
                                              washingto~.   OC 20S28 / www.oig.dhs.gov

                                                        June 5, 2013

MEMORANDUM FOR:                          Major P. (Phil) May
                                         Regional Administrator, Region IV
                                         Federal             Management Agency

FROM:




SUBJECT:                                FEMA Should Recover $4.1 Million of Public Assistance
                                        Grant Funds Awarded to Orlando Utilities Commission -
                                        Hurricane Charley
                                        FEMA Disaster Number 1539·DR·FL
                                        Audit Report Number DA·13·18

We audited Public Assistance grant funds awarded to the Orlando Utilities Commission, Florida
(Utility) (FIPS Code OOO·UT15M·OO). Our audit objective was to determine whether the Utility
accounted for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Utility received a Public Assistance award of $17.1 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Charley, which occurred in August 2004. The award provided 90 percent FEMA funding for
debris removal activities, emergency protective measures, repair oft he electric transmission
and distribution system, repair/replacement of buildings and equipment, and other disaster-
related activities. The award consisted of 231arge projects and 23 small projects. 1

We audited six large projects with awards totaling $12.8 million (see Exhibit, Schedule of
Projects Audited). The audit covered the period August 13, 2004, to September 21, 2011,
during which the Utility claimed $12.8 million under the projects reviewed. At the time of our
audit, the Utility had not submitted final claims on all project expenditures to the State.

We conducted this performance audit between June 2012 and March 2013 under the authority
of the Inspector Genera/ Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. To conduct this

1
    Federal regulations   in effect at the time of Hurricane Charley set the large project thrcsholcl at $54,100.
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


audit, we applied the statutes, regulations, and FEMA policies and guidelines in effect at the
time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed Utility,
State, and FEMA officials; reviewed the Utility procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
Utility’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the Utility’s method
of accounting for disaster-related costs and its policies and procedures for administering the
activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $4,067,504 (Federal share $3,660,754) of grant funds awarded to the
Utility. Although the Utility generally accounted for FEMA funds according to Federal regulations
and FEMA guidelines, its claim included $4,067,504 for contract work that did not meet Federal
procurement requirements and FEMA guidelines. We also determined that the State and FEMA
could have done a better job of reviewing the eligibility of costs claimed by the Utility during
their closeout process.

Finding A: Contracting Procedures

The Utility did not comply with Federal contracting requirements when awarding contracts for
permanent electrical repair work valued at $4,067,504. Federal procurement regulations at 44
CFR 13.36 required the Utility, among other things, to—

       Conduct all procurement transactions in a manner providing full and open competition.
       Noncompetitive procurement may be used under certain circumstances, one of which is
       when the public exigency or emergency will not permit a delay resulting from
       competitive solicitation. (44 CFR 13.36 (c)(1) and 44 CFR 13.36(d)(4)(i)(B))

       Perform a cost or price analysis in connection with every procurement action, including
       contract modifications, to determine the reasonableness of the proposed contract price.
       A cost analysis is required when adequate price competition is lacking. (44 CFR
       13.36(f)(1))

       Take all necessary affirmative steps to assure that minority firms, women’s business
       enterprises, and labor surplus area firms are used, when possible, during the
       procurement process. (44 CFR 13.36(e)(1))

www.oig.dhs.gov                             2                                     DA-13-18
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



       Grantees and subgrantees will maintain records sufficient to detail the significant
       history of a procurement. These records will include, but are not necessarily limited to
       the following: rationale for the method of procurement, selection of contract type,
       contractor selection or rejection, and the basis for the contract price. (44 CFR
       13.36(b)(9))

In addition, FEMA Public Assistance Guide (FEMA 322, Public Assistance Guide, October 1999,
p. 39) specifies that—

       Contracts must be of reasonable cost, generally must be competed, and must comply
       with Federal, State, and local procurement standards.

       Noncompetitive proposals should be used only when the award of a contract is not
       feasible under small purchase procedures, sealed bids, or competitive proposals, and
       one of the following circumstances applies: (1) the item is available only from a single
       source, (2) there is an emergency requirement that will not permit a delay, (3) FEMA
       authorizes noncompetitive proposals, or (4) solicitation from a number of sources has
       been attempted and competition is determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by­
case basis (44 CFR 13.6(c)).

The Utility did not solicit competitive bids or take positive efforts to use small businesses,
minority-owned firms, and women’s business enterprises for contract work valued at $4,067,504.
Utility officials said that, using the Utility’s emergency contracting procedures, they solicited
bids only from contractors from which they already had secured services prior to the storm, or
ones that they believed had the requisite knowledge, expertise, and workforce to perform the
required work. In addition, they said that the Utility’s emergency procurement procedures do
not require it to consider procurement opportunities for small businesses, minority-owned
firms, women’s business enterprises, and disadvantaged businesses.

We disagree with the Utility’s assertion that emergency conditions warranted the use of
noncompetitive contracts. The Utility restored electrical power to almost all of its customers
on August 22, 2004, which we consider the end of the emergency period. The contracts in
question were for work performed after August 22, 2004, and continued for several months.
The Utility should have openly competed such work because exigent circumstances no longer
existed to justify the use of noncompetitive contracts. Full and open competition increases the
probability of reasonable pricing from the most qualified contractors, and helps discourage and
prevent favoritism, collusion, fraud, waste, and abuse. It also allows the opportunity for minority



www.oig.dhs.gov                              3                                     DA-13-18
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


firms, women’s business enterprises, and labor surplus area firms to participate in Federally
funded work.

In addition, the Utility did not have adequate documentation to show that it performed a
cost/price analysis to determine the reasonableness of the contractors’ proposed prices. A cost
or price analysis decreases the likelihood of unreasonably high or low prices, contractor
misinterpretations, and errors in pricing relative to the scope of work. Utility officials said that
they used the scope of work and price points established with existing contractors to establish
prices for the work with new contractors. However, they could not provide documentation to
show how they negotiated the prices with the existing contractors. Without adequate
documentation, we could not validate that the Utility performed a proper cost analysis and that
the prices paid for the contract work were reasonable. We question the $4,067,504 claimed for
the contract work that did not meet Federal procurement requirements and FEMA guidelines,
as identified in table 1.

                               Table 1. Noncompetitive Contracts
                                                          FEMA
            Project                                     Category of         Amount
            Number              Scope of Work              Work            Questioned
             1812      Engineering and Management
                       Fees to Replace Transformer           F              $ 147,119
              2311     Debris Removal                        A                262,230
              3565     Electrical Transmission System
                       Repairs Equipment Repairs             F               3,522,565
             3587      Equipment Repairs                     F                 135,590
             Total                                                          $4,067,504

Utility Response. Utility officials generally disagreed with our finding. They said that it was
infeasible to use a competitive award process because of a shortage of viable contractors and
the public emergency created by widespread power outages after the disaster. They also said
that the emergency did not permit them to take affirmative steps to ensure that minority firms,
women’s business enterprises, and labor surplus area firms were used when possible for the
required services.

Office of Inspector General Response. As discussed in the finding, we disagree with the Utility’s
assertions. We did not question contract costs claimed for the emergency restoration of
power. The costs we are questioning are for longer-term electrical repair work completed after
emergency power had been restored to the Utility’s customers. After such time, we believe
that an emergency situation no longer existed to warrant the use of noncompetitive contracts.
Further, the Utility did not provide us with evidence to support its assertion that viable
contractors were not available to support a competitive award process. In addition, Federal

www.oig.dhs.gov                              4                                      DA-13-18
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


regulations required the Utility to consider minority firms, women’s business enterprises, and
labor surplus area firms when contracting for goods and services under a Federal grant.

Finding B: Grant Management

The State and FEMA should have done a better job of reviewing the eligibility of costs claimed
by the Utility. According to 44 CFR 13.37(a)(2), the State, as grantee, is required to ensure that
subgrantees are aware of requirements imposed on them by Federal regulations. Further,
44 CFR 13.40(a) requires the grantee to manage the day-to-day operations of subgrant activity
and monitor subgrant activity to ensure compliance with applicable Federal requirements.

Before the start of our audit, a closeout team of FEMA and State personnel reviewed and
approved the contract costs under the applicable projects during closeout of the projects,
which occurred at various times between May 2006 and July 2011. However, the closeout file
documentation did not indicate that the team reviewed the contracts for adherence to Federal
procurement requirements and FEMA guidelines, or for reasonableness. The team’s procedures
focused mainly on whether the Utility followed its own contracting procedures and whether the
costs were supported by invoices. Therefore, we recommend that FEMA remind the State and
FEMA Public Assistance personnel of the need to adequately review costs claimed by
subgrantees for adherence to Federal regulations and FEMA guidelines.


                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $4,067,504 (Federal share $3,660,754) of ineligible costs
claimed for contracts unless FEMA grants the Utility an exception for all or part of the costs as
provided for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended, and determines the costs were reasonable.

Recommendation #2: Instruct the State to remind the Utility that it is required to comply with
Federal procurement standards when acquiring goods and services under a FEMA award.

Recommendation #3: Reemphasize to the State and FEMA Region IV Public Assistance
personnel of the need to adequately review costs claimed by subgrantees for adherence to
Federal regulations and FEMA guidelines.




www.oig.dhs.gov                              5                                     DA-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP 


We discussed the audit results with Utility, State, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on March 14, 2013. Utility officials’ comments,
where appropriate, are included in the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director; Felipe
Pubillones, Audit Manager; Salvador Maldonado-Avila, Auditor-in-Charge; and Larry Jones,
Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             6                                    DA-13-18
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


                                                                                   Exhibit

                            Schedule of Projects Audited

           Project   Category    Amount        Amount          Federal
           Number    of Work     Awarded      Questioned        Share
            1812         F        $961,523       $147,119       $132,407
            2311        A         1,796,943       262,230         236,007
            2333        A           340,564              0              0
            3565        F         9,200,278      3,522,565      3,170,309
            3587        E           237,419        135,590        122,031
            3646        B           255,412              0              0
            Total               $12,792,139     $4,067,504    $3,660,754




www.oig.dhs.gov                       7                                 DA-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                             Appendix


                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-042)

State
Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee
Director of Accounting Services, Orlando Utilities Commission

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            8                            DA-13-18
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
